                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                     April 5, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Rescission of DoD Inspector General Report No. DODIG-2012-030, "Contractor
         Compliance Varied With Classification of Lobbying Costs and Reporting of
         Lobbying Activities," December 12, 2011

        We are rescinding the subject report because it did not fully disclose the criteria and
methodology used to reach some of the conclusions. As a result, some information presented in
the repmi was incomplete and misleading. In accordance with generally accepted government
auditing standards, we are notifying you of this report rescission so that you do not continue to
rely on the information contained in the original repmi. The original version was removed from
our website, and any original versions of the report in your possession should be destroyed.

        We will re-issue the repmi under number DODIG-2012-030R. The revised report will
include a more thorough description of the criteria and our audit scope and methodology. The
repmi will also conect enors and incorporate information provided to the audit team subsequent
to the publication of the original report and any other revisions determined to be necessary.

       If you have any questions, please contact me at (703) 604-8901.




                                              Daniel R. Blair
                                              Deputy Inspector General
                                              for Auditing
